            AUDIT OF
WORKFORCE INVESTMENT BOARD OF
 SOUTHEAST LOS ANGELES COUNTY
 H-1B TECHNICAL SKILLS TRAINING
   GRANT NUMBER AH-11086-01-60
    NOVEMBER 15, 2000 THROUGH
        DECEMBER 31, 2001




             U.S. DEPARTMENT OF LABOR
             OFFICE OF INSPECTOR GENERAL

             REPORT NO: 02-02-215-03-390
             DATE:      September 30, 2002
                                            TABLE OF CONTENTS




ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY .............................................................................................................1

INTRODUCTION

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.     PROGRAM IMPLEMENTATION..............................................................................6

          II. PROGRAM OUTCOMES ...........................................................................................9

          III. REPORTED OUTLAYS ............................................................................................10

APPENDIX

          SELACO’S RESPONSE TO DRAFT REPORT...............................................................12
                         ACRONYMS


ACWIA    American Competitiveness and Workforce Improvement Act

CFR      Code of Federal Regulations

CNC      Computer Numerical Control

FSR      Financial Status Report

NIMS     National Institute for Machine and Measurement Standards

OMB      Office of Management and Budget

SELACO   Workforce Investment Board of Southeast Los Angeles County

USC      University of Southern California, Center for Economic Development

USDOL    U.S. Department of Labor

WIA      Workforce Investment Act




                                   i
                                   EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted an audit of the
Workforce Investment Board of Southeast Los Angeles County’s (SELACO) H-1B technical
skills training grant for the period November 15, 2000 through December 31, 2001. The overall
audit objective was to evaluate if SELACO was meeting the intent of the H-1B Technical Skills
Training Program and the requirements of its grant. The subobjectives were to determine if:

      •   The project had been implemented as stated in the grant.

      •   Program outcomes were measured, achieved, and reported.

      •   Reported outlays were reasonable, allocable, and allowable in accordance with applicable
          Federal regulations, and Office of Management and Budget (OMB) Circular A-122, Cost
          Principles for Non-Profit Organizations.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded SELACO $2,800,000 to operate an H-1B Technical Skills
Training Program for the period November 15, 2000 to November 14, 2002. The training
program was designed to provide high- tech machinist/CNC (computer numerical control)
training in four modes: Conventional Classroom Instruction, PC-Web Hybrid, Web-Based, and
PC-Based Application.

AUDIT RESULTS

As of December 31, 2001, SELACO recruited and referred targeted participants to training at
local community colleges with established curricula. Participants paid for their own training.
Thus, sustainability is not an issue with regard to Conventional Classroom Instruction.
Additionally, SELACO reported out lays in accordance with applicable Federal regulations and
cost principles. However, SELACO did not implement other modes of training, measure and
report all outcomes, or report matching funds.

      • PC-Web Hybrid, Web-Based, and PC-Based Application training modes, which were the
          unique aspects of the grant, were not fully developed and offered at participant worksites,
          as originally envisioned in the grant. As of April 11, 2002, 1 only 58 of the 180 modules
          proposed in the grant to be used in these modes of training were developed.

      •   SELACO did not fully accomplish, measure, or report proposed program outcomes. As
          of December 31, 2001, 1,106 participants were being trained, working towards
          certification or associate degrees. This exceeds the training enrollment goal of 500.


1
    Audit fieldwork at SELACO ended on April 11, 2002.

                                                         -1 -
       However, training completions, placements, and employment upgrades were not known,
       as SELACO did not track this data.

   •   The grant established a matching requirement of 25 percent of Federal outlays. However,
       the third party in-kind cont ribution had not been reported as of December 31, 2001.


SELACO’s RESPONSE TO DRAFT REPORT

On September 13, 2002, the Executive Director of SELACO responded to the draft
report. He stated that (1) 3 modes of training curriculum were developed and 175
training modules were completed over the summer of 2002, (2) reporting measures would
be implemented in the Fall of 2002, and (3) a revision was made to the June 30, 2002,
Financial Status Report (FSR) to include the match contribution.

OIG COMMENTS

SELACO’s response indicates that it has made additional progress towards implementing
its program in accordance with the grant requirements. ETA needs to follow up with
SELACO to verify the progress reported since the end of our audit fieldwork.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensures that SELACO:

       • completes the remaining modules to be used for training and continues to implement
         the three remaining modes of training curriculum (PC-Web Hybrid, Web-Based, PC-
         Based Application);

       •   achieves, measures, and properly reports training completions, placements, and
           upgrades; and

       •   continues to obtain and report the required matching funds.




                                               -2 -
                                            INTRODUCTION

                     The American Competitiveness and Workforce Improvement Act of 1998
     BACKGROUND      (ACWIA) was enacted to help employed and unemployed U.S. workers
                     acquire the technical skills for occupations that are in demand and being
                     filled by H-1B visa holders. The H-1B program allows employers to
temporarily employ foreign workers on a nonimmigrant basis to work in specialized jobs not
filled by U.S. workers (8 U.S.C. 1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on
employers for H-1B applications. ACWIA provides that over half of that fee is used to finance
the H-1B Technical Skills Training Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act and Title I-D of the Workforce Investment Act
(WIA). As of March 31, 2002, USDOL had conducted 4 rounds of grant competition and
awarded 60 grants totaling approximately $143 million.

                           Grant       Solicitation     Number      Award
                           Round            Date       of Grants    Amount
                             1        August 16, 1999       9     $12,383,995
                             2        March 29, 2000       12     $29,166,757
                             3        August 1, 2000       22     $54,000,000
                             4        April 13, 2001       17     $47,559,7612
                                                 Total     60    $143,110,513

In the third round, SELACO was awarded $2,800,000 under Grant Number AH-11086-01-60,
for the period November 15, 2000 through November 14, 2002. SELACO proposed and agreed
to train high-tech machinist/computer numerical control (CNC) professionals. This training was
to fill critical skills gaps in the H-1B occupational category that encompasses the metalworking
professions, specifically mechanical engineering occupations. As stated in the grant, the
training, upgrading, and placement of over 500 highly skilled workers was to have a positive
effect on the manufacturing industry in Southeast Los Angeles County.

The grant proposed a training curriculum for delivery in four different modes: PC-Web Hybrid,
Web-Based, PC-Based Application, and Conventional Classroom Instruction. One hundred
eighty training modules were proposed to be used in these modes of training.

Created in 1983, SELACO is a not-for-profit public benefit corporation under the Non-Profit
Corporation Law of the State of California. SELACO had been designated by the city councils
of the cities of Artesia, Bellflower, Cerritos, Downey, Hawaiian Gardens, Lakewood, and
Norwalk to administer funds and programs under the Federal Workforce Investment Act, for the
state-approved local Workforce Investment Area comprised of those seven cities.


2
    As of March 31, 2002, Round 4 was still an open solicitation with an additional $87 million available for award.

                                                          -3 -
       AUDIT           The overall audit objective was to evaluate if SELACO was meeting the
    OBJECTIVES         intent of the H-1B Technical Skills Training Program and the
                       requirements of its grant. The subobjectives were to determine if:

   •   The project had been implemented as stated in the grant.

   •   Program outcomes were measured, achieved, and reported.

   •   Reported outlays were reasonable, allocable, and allowable in accordance with applicable
       Federal regulations, and OMB Circular A-122, Cost Principles for Non-Profit
       Organizations.

                      The audit period was November 15, 2000 through
    AUDIT SCOPE        December 31, 2001. In performing this audit, we reviewed the
         AND          Solicitation for Grant Applications and the grant agreement to determine
   M ETHODOLOGY       the requirements and performance measures of the grant. We
                      interviewed staff at SELACO, University of Southern California (USC)
Center for Economic Development, and Cerritos Community College. We examined participant
records and reviewed other materials related to project implementation.

We audited cumulative net outlays of $606,897, consisting solely of the Federal share, on the
Financial Status Report (FSR) for the period November 15, 2000 through December 31, 2001.
The required third party in-kind contributions were not reported during this period. We traced
expenditures to general ledgers and examined supporting documentation including vouc hers and
invoices. Judgmental sampling was used to test individual account transactions and balances.
We tested outlays of $276,117 or 45 percent of reported Federal outlays.

We considered SELACO’s internal controls over the H-1B grant project by obtaining an
understanding of the grantee’s internal controls, determining whether these internal controls had
been placed in operation, assessing control risk, and performing tests of controls. Our purpose
was to determine the nature and extent of testing needed to satisfy our audit objectives, not to
provide assurances on the internal controls; therefore, we do not provide any such assurances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of
SELACO. We performed tests of compliance with certain provisions of laws, regulations, and
the grant to evaluate if SELACO was meeting the requirements of the grant and that reported
costs were reasonable, allocable and allowable in accordance with applicable provisions of
Federal regulations and OMB circulars. However, our objective was not to provide an opinion
on overall compliance with Federal regulations and OMB circulars, and, accordingly, we do not
express such an opinion. We evaluated allowability of claimed costs using relevant criteria
including: ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-
Profit Organizations; and the requirements of the grant. We examined compliance with grant
requirements and program outcomes goals using the Solicitation for Grant Applications and the
grant agreement.



                                               -4 -
We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from April 1, 2002 to
April 11, 2002, at SELACO, located in Cerritos, California. We held an exit conference with
SELACO on August 22, 2002.




                                              -5 -
                  FINDINGS AND RECOMMENDATIONS

I. PROGRAM IMPLEMENTATION

The Solicitation for Grant Applications states:

    The primary emphasis of the ACWIA technical skills training will be to
    focus on employed and unemployed workers who can be trained and
    placed directly in the highly skilled H-1B occupations. . . .

    Although the primary focus of these awards is technical skill training, ETA
    intends that regional partnerships sustain themselves over the long term – well
    after the federal resources from this initiative have been exhausted.

SELACO recruited and referred targeted participants to training at local community colleges with
established curricula. Participants paid for their own training. Thus, sustainability is not an issue
with regard to Conventional Classroom Instruction. However, three other training modes, which
were the unique aspect of the grant, were not fully developed and offered at participant worksites,
as originally envisioned in the grant.

   TRAINING     The grant proposed a training curriculum for delivery in four different modes:
   PROVIDED     PC-Web Hybrid, Web-Based, PC-Based Application, and Conventional Classroom
                Instruction. However, only Conventional Classroom Instruction had been
implemented. The other modes of training were in development.

Conventional Classroom Instruction

The grant agreement states that:

       . . . Training will be offered . . . at the participants’ worksites or either of two
       partner sites: Cerritos College or Long Beach City College. . . . All training will
       be compliant with NIMS standards (covering machine tooling, machining, and
       CNC).

SELACO and its partners offered high- tech machinist/CNC professional training in three areas:
General Machinist, CNC Machinist, and CNC Programmer. SELACO recruited and referred
participants to courses utilizing already established curricula at local community colleges.
Participants paid tuition for training at Cerritos Community College, Compton Community
College, and Long Beach City College. Though these colleges had not agreed to follow National
Institute for Machine and Measurement Standards (NIMS), each college had its own curriculum
for certification.




                                                  -6 -
PC and Web Training

PC-Web Hybrid, Web-Based, and PC-Based Application are the three remaining modes of
training that were proposed in the grant, but had not yet been implemented. One hundred eighty
training modules were proposed to be used in these modes of training. These modules are stored
on a CD or DVD and accessed through a home computer or via Internet. As of
April 11, 2002,3 only 58 of the 180 modules had been produced and were being tested by
Cerritos Community College. Almost 100 modules should have been produced, as shown by the
below module goals:

                                         Module Production      Cumulative Module
                    Due Date                  Goals              Production Goals

              February 14, 2001                    1                    1
              November 14, 2001                   19                   20
              February 14, 2002                   40                   60
              May 14, 2002                        40                  100
              August 14,2002                      40                  140
              November 14, 2002                   40                  180

                       Total                     180                  180

The grant agreement states that small vir tual training centers “ . . . will take the form of a cluster
of computers connected to the WWW and able to access and use the new training materials
developed.” A goal by November 14, 2001, was to develop pilot virtual training centers at 2-4
companies. As of April 11, 2002,3 three companies have volunteered to pilot small virtual
training centers to test the new training modules. As a result, training was not offered at
participant worksites as originally envisioned in the grant.

        TARGET       SELACO was meeting the requirement of the grant to target employed
   POPULATION        individuals requiring skill upgrades, unemployed, and underemployed
                     individuals. SELACO’s marketing and outreach efforts included linking
                     SELACO’s web page to participating institutions; preparing and
distributing brochures; attending local conventions; using radio and other media, especially for
Spanish speaking communities; and utilizing mail lists.

                         SELACO’s H-1B training project utilizes existing capacities and
     SUSTAINABILITY      resources. Local community colleges were already providing machinist
                         training and certification for students. Students paid their own nominal
tuition (usually $12 a credit) and do not depend on H-1B funding. Therefore, the sustainability
of conventional classroom training was ensured. The sustainability of PC and Web-based
training modes was not established.




3
    Audit fieldwork at SELACO ended on April 11, 2002.

                                                         -7 -
  EVALUATION          The grant agreement states:


        . . .This project will be evaluated by users, instructors, and by our partners. . . .
        Survey instruments will be developed to include:

           Survey of users to determine the effectiveness of the material as an
           instructional aide.

           Survey those contacted during project marketing to determine effectiveness of
           advertising and outreach.

           Develop and implement an on- line response questionnaire to determine user
           satisfaction.

           Develop and implement mail-back survey for participants. . . .

Surveys had been performed but the results were not yet compiled. Only students had been
surveyed but SELACO indicated it planned to survey instructors and partners before the end of
the grant.

An on-line response questionnaire was implemented on CNCtechlabs.com and a mail-back
survey had also been developed and implemented but the outcomes will not be available until the
Fall of 2002. Once the modules are completed, SELACO staff indicated that they will survey the
users to determine the effectiveness of the material as an instructional aid.

SELACO’s RESPONSE TO O UR DRAFT R EPORT

In his September 13, 2002, response to the draft report, the Executive Director of SELACO
stated that 175 training modules had been completed, with an additional 24 modules to be
completed by November 15, 2002, giving a completion total of 199. Additionally, he stated that
SELACO may have the opportunity to complete up to 17 more modules if work continues to
progress smoothly at its current pace - giving an estimated new total of 216.

He further stated that the three modes of training curriculum (PC Web Hybrid, Web-
Based, PC-Based Application) were developed over the summer months in tandem with
the completion of 175 training modules.

OIG’s COMMENTS

SELACO did not address progress in developing virtual training centers at participant worksites.




                                                  -8 -
RECOMMENDATIONS

We recommend the Assistant Secretary for Emp loyment and Training ensures that SELACO:

   •   Completes the remaining modules to be used for training.

   •   Continues to implement the three remaining modes of training curriculum (PC-Web
       Hybrid, Web-Based, PC-Based Application).


II. PROGRAM OUTCOMES

SELACO did not fully accomplish, measure, or report proposed program outcomes. Only
training enrollments were reported as being achieved. The expected performance outcomes as
stated in the grant agreement were:

   The training/placement/upgrade of at least 500 potential and incumbent workers . . .

   . . . a complete curriculum of modular technical training programs designed to meet
   job skilled needs in the region from entry level through highly skilled practitioners
   and management personnel. . . .


    O UTCOME         As of December 31, 2001, 1,106 participants were being trained, working
 ACHIEVEMENT         towards certification or associate degrees. This exceeds the training
                     enrollment goal of 500. However, training completions, placements, and
upgrades were not known, as SELACO did not track this data. Further, training outcomes relate
only to classroom training since the curriculum of modular technical training programs had not
been implemented.


  M EASUREMENT          The grant required that SELACO submit quarterly progress reports on
  AND R EPORTS          project performance. 29 CFR 95.51(d)(1) states that performance reports
                        should contain: “A comparison of actual accomplishments with the goals
and objectives established for the period . . .”

The only outcome measured and reported was the number of participants being trained.
Employment upgrades or placements were not measured or reported even though the timeline in
the grant agreement indicates that SELACO, in the first 6 months of 2001, will provide career
development and job placement through job developers at partnering organizations and
institutions.

The USC Project Coordinator developed a program participant tracking database, but as of
December 31, 2001, SELACO has been unable to collect all of the information necessary to
measure the proposed outcomes of this project. The coordinator indicated that USC plans to mail
surveys to segregate those participants who are having their skills upgraded from those
participants new to the field and to quantify the wages the participants earn after the training.

                                               -9 -
SELACO’s RESPONSE TO O UR DRAFT R EPORT

In his September 13, 2002, response to the draft report, the Executive Director of SELACO
stated that the CNC Machinist training program is a 2-year training program, whether done at
certificate or AA degree level. The project team developed reporting measures and had
scheduled reporting to begin in the Fall of 2002. Given that not all participants would have
completed their training by that time, the Project Coordinating Council had determined that
post-program followup would occur at such time, and for all trainees regardless of the training
completion status.

He also stated that most students often receive raises, promotions and employment prior
to completing their certificates or AA degrees, thus allowing the project to capture all
results by the end of the project.

In addition, he stated that the student population SELACO is targeting does not continue
its education and training on a consecutive type schedule due to reasons of personal and
family responsibilities. With this in mind, the most reasonable method to record positive
outcomes would be to reschedule the followup activity to the latter quarters of the
project. He stated that the surveys will be conducted during the Fall of 2002, with full
data collection and results to be reflected in the year end report.

OIG COMMENTS

The approach to post-program followup detailed by SELACO in its response to our draft report
seems reasonable. ETA needs to work closely with SELACO officials to ensure the grantee
implements its planned approach in a timely manner.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training ensures that SELACO
achieves, measures and properly reports training completions, placements, and upgrades.


III.   REPORTED OUTLAYS

SELACO claimed cumulative net outlays of $606,897, consisting solely of the Federal share, on
the FSR for the period ending December 31, 2001. There are no questioned costs in this report.

The grant established a matching requirement of 25 percent on Federal outlays. SELACO had
not reported third party in-kind contributions as of December 31, 2001. Grant costs may be
questioned if the matching requirement is not met by the end of the grant.




                                              - 10 -
SELACO’s RESPONSE TO O UR DRAFT R EPORT

In his September 13, 2002, response to the draft report, the Executive Director of SELACO
stated that SELACO has received match contribution reports and submitted a revision to the
June 30, 2002, quarterly report (FSR) to include the match contribution. He stated that the total
match amount reported meets the minimum matching requirements of 25 percent, and SELACO
will continue to request for reporting purposes complete matching detail reports by all project
partners through the term of this grant.

OIG’S COMMENTS

ETA needs to ensure that SELACO continues to include matching funds in its quarterly FSRs.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training ensures that SELACO
obtains and reports the required matching funds, and that such funds meet the criteria detailed in
the grant.




                                               - 11 -
                                    APPENDIX




SELACO’s RESPONSE TO DRAFT REPORT




               - 12 -
